                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A03050023                                                                           Page 1 of I



          This case originated in an audit finding of non-compliance. The institution' did not have a
          financial conflict-of-interest policy that met requirements found in NSF Grand Policy Manual
          (GPM) Section 510. The institution agreed with the findings of the audit2 and agreed to
          implement a compliant financial conflict-of-interest policy.
                          i

         When we contacted3the institution as part of our inquiry, we determined that no action had been
         taken to put into place a compliant conflict-of-interest policy. We emphasized the seriousness of
         non-compliance, and the potential consequences of continued failure to act. As a result, the
         institution proposed modifications to their current regulations to bring it into accordance with the
         requirements set forth in section 5 10 of GPM. The revised regulations were approved by the
         chancellor of the institution on January 6 , 2 0 0 4 . ~~ d d i t i o n to
                                                                                 s ~the regulations that deal with
         potential sanctions for violation of the policy were put in place in April 2004.

          The institutional regulations now appear to be in compliance with NSF requirements.

         Accordingly, this case is closed.




          1
            Redacted.
            Redacted.
          3
            Redacted.
          4
            Redacted.
          5
            Redacted.



NSF OIG Form 2 (1 1/02)
